<html>
<title> - SUPPORTING AN UPGRADE IN ISRAEL'S RELATIONSHIP WITH NATO; ETHIOPIA FREEDOM, DEMOCRACY, AND HUMAN RIGHTS ADVANCEMENT ACT OF 2006; CONGRATULATING THE INTERNATIONAL AIDS VACCINE INITIATIVE; CALLING ON GERMANY TO TAKE IMMEDIATE ACTION TO COMBAT SEX TRAFFICKING IN CONNECTION WITH THE 2006 FIFA WORLD CUP; CONGRATULATING ISRAEL'S DAVID ADOM SOCIETY; UNITED STATES AND INDIA NUCLEAR COOPERATION PROMOTION ACT OF 2006; AND MILLENNIUM CHALLENGE REAUTHORIZATION ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
            SUPPORTING AN UPGRADE IN ISRAEL'S RELATIONSHIP WITH NATO; 
              ETHIOPIA FREEDOM, DEMOCRACY, AND HUMAN RIGHTS ADVANCEMENT 
              ACT OF 2006; CONGRATULATING THE INTERNATIONAL AIDS 
              VACCINE INITIATIVE; CALLING ON GERMANY TO TAKE IMMEDIATE 
              ACTION TO COMBAT SEX TRAFFICKING IN CONNECTION WITH THE 
              2006 FIFA WORLD CUP; CONGRATULATING ISRAEL'S DAVID ADOM 
              SOCIETY; UNITED STATES AND INDIA NUCLEAR COOPERATION 
              PROMOTION ACT OF 2006; AND MILLENNIUM CHALLENGE 
              REAUTHORIZATION ACT OF 2005 
=======================================================================


                                        MARKUP 

                                      BEFORE THE 

                                     COMMITTEE ON 

                                INTERNATIONAL RELATIONS 
                                HOUSE OF REPRESENTATIVES 

                                ONE HUNDRED NINTH CONGRESS 

                                       SECOND SESSION 

                                            ON 

                   H. Res. 700, H.R. 5680, H. Res. 844, H. Res. 860, 
                        H. Con. Res. 435, H.R. 5682 and H.R. 4014 

                                         -------

                                      JUNE 27, 2006 

                                         -------
        
                                    Serial No. 109-216 

                                         -------

       Printed for the use of the Committee on International Relations 

                       Available via the World Wide Web: 
                 http://www.hollse.gov/international_relations 
                                    -----

                         U.S. GOVERNMENT PRINTING OFFICE 

28-425PDF                         WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                         Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
